 Department of Health and Human Services

         OFFICE OF
    INSPECTOR GENERAL




Medicare Home Health Agency Survey
   and Certification Deficiencies




                    JUNE GIBBS BROWN
                     Inspector General

                      SEPTEMBER 2000
                       OEI-02-99-00532
                        OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                          Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's New York Regional Office prepared this report under the direction of John I. Molnar,
Regional Inspector General, and Renee C. Dunn, Deputy Regional Inspector General. Principal
OEI staff included:

REGION                                       HEADQUARTERS

Demetra Arapakos, Project Leader
            Tricia Davis, Program Specialist

Miriam Gareau, Lead Analyst
                 Brian Ritchie, Director, Technical Support Staff

Patricia Banta 
                             Linda Moscoe, Technical Support

Lucille Cop





  To obtain copies of this report, please call the New York Regional Office at (212) 264-2000.
         Reports are also available on the World Wide Web at our home page address:
                                   http://www.dhhs.gov/oig/oei
                          EXECUTIVE SUMMARY

PURPOSE

          To determine if the extent and nature of Medicare home health agency survey and
          certification deficiencies, particularly relating to adequacy of care, have changed since the
          implementation of the Interim Payment System in 1997.

BACKGROUND

          This inspection follows an Office of Inspector General report issued in November 1999

          entitled “Medicare Beneficiary Access to Home Health Care” (OEI-02-99-00530). In that

          study, most hospital discharge planners report generally being able to place Medicare

          beneficiaries with home health agencies; however, some volunteer concern that not all

          beneficiaries may be getting adequate care. This inspection follows up on those concerns. 

          It is part of a series of inspections that the Office of Inspector General has conducted 

          about home health care.


          Home health services consist of skilled nursing, therapy (physical, occupational, and

          speech), home health aide and other related services furnished in a patient’s home. 

          Medicare regulations require that each patient have a plan of care, established by a

          physician, that includes specific treatment information. All home health agencies

          participating in Medicare must be surveyed by the State in order to be certified as 

          meeting Federal requirements. 


          We combined four methods for this inspection: an analysis of survey deficiency data; 

          interviews with State and the Health Care Financing Administration survey and certification

          staff; a review of State survey deficiency reports; and a demographic data analysis. For the

          purpose of this study, we define adequate care to mean appropriate intensity and frequency

          of services. We assume the adequacy of care patients receive is indicated in part by the

          extent to which their plans of care are appropriately developed 

          and implemented.


FINDINGS

Overall, home health agency deficiencies have increased, but there is
no single explanation for this growth

Deficiencies increased from 1997 to 1999

          Nationally, both the rate and total number of all home health deficiencies have grown
          between the first 6 months of 1997 and the first 6 months of 1999. The deficiency rate


Medicare HHA Survey and Certification Deficiencies   i                                     OEI-02-99-00532
          (deficiencies per survey) increased by 26 percent, from 3.1 to 3.9. At the same time, the
          total number of deficiencies grew by 53 percent, from 5,438 to 8,297.

          During our study time frames, 12 so called “condition level” deficiencies with numerous
          standards within them could be cited if one or more of those standards were not met.
          Condition level deficiencies are therefore broader and more severe in scope. The rate for
          total condition level deficiencies went from .14 in 1997 to .23 in 1999, which is an increase
          of more than half.

Inconsistent survey processes may result in different deficiency rates among
States

          States differ in their deficiency rates, number of surveys, and survey protocols. First, not
          all States have had an increase in their deficiency rates; about half have actually had a
          decrease. The sample States with a decrease attribute this to closures of poor care
          providers. Also, the number of surveys conducted between 1997 and 1999 varies among
          States; nearly all States with an increase in the number of surveys also had an increase in
          deficiencies, while those with fewer surveys had fewer deficiency citations.
          Lastly, inconsistent survey processes among the 10 sample States, including survey
          schedules and interpretations of deficiency tags, contribute to different deficiency rates.

Several reasons may account for the increase in deficiencies

          The State survey and certification and Health Care Financing Administration staff that we
          surveyed do not attribute the increase in deficiencies to any single factor. Instead they
          point to several factors, including the following four.

          Changes to the home health survey schedule. Most State and Health Care Financing
          Administration respondents say the change to the home health survey schedule that
          increased the interval between standard surveys has allowed agencies to develop and
          maintain patterns of poor care.

          Increased Federal involvement. State respondents cite increased Federal initiatives and
          training as having strengthened survey protocols to make them more stringent.

          Declining quality of home health care. A few State respondents directly attribute the
          increase to a declining quality of home health care.

          Interim payment system. While no State respondents volunteer the interim payment
          system as a direct cause for the increase in deficiencies, some note that it may be affecting
          the amount of care agencies provide.

Adequacy of care deficiencies are most common in both years

          Nationally, one fourth of all deficiencies in both 1997 and 1999 fall within what we call


Medicare HHA Survey and Certification Deficiencies   ii                                    OEI-02-99-00532
          the “plan of care” condition. The majority of standards within this condition pertain to
          whether the plan of care is appropriately developed, followed, reviewed, and updated.
          Also, four of the six most common standard deficiencies fall within the “plan of care”
          condition, including the top deficiency, G158. It is cited when patient care does not follow
          a written plan of care established and periodically reviewed by a physician.

          Based on our review of 100 survey deficiency reports, we identified four main categories of
          “plan of care” deficiencies.

          Agencies are not providing all ordered visits. The agency is not providing as many
          nursing visits, home health aide visits, or therapy visits as were ordered by the physician in
          the plan of care.

          Agencies are not providing all treatments. The agency is not providing all appropriate
          treatments during visits, such as monitoring patients’ weight and pressure sores.

          Agencies are not contacting physicians when necessary. Agency staff are not alerting
          physicians when patients’ conditions worsen or their prescribed treatment should be
          changed.

          Agencies are not developing comprehensive plans of care. Agencies are failing to
          appropriately develop a comprehensive plan of care for all of their patients.

          Less commonly, plan of care deficiencies also indicate that more care is provided than
          ordered.

CONCLUSION

          Just as there is no single cause for the increase in home health agency deficiencies, there
          is no single course of action to be taken. Instead, a combination of approaches may be
          appropriate, including strengthened State survey protocols and continued close scrutiny of
          the care being provided to home health beneficiaries.

          The nature of deficiencies being cited indicate that some beneficiaries may not be receiving
          all the care they need. The introduction of the Prospective Payment System should in part
          address this concern, since it allocates more money for the most severe patients and
          establishes new payments every 60 days for long term patients. At the same time, this new
          system could create or increase the incentive on the part of some home health agencies to
          shortchange Medicare home health beneficiaries in the amount and intensity of care
          provided. It will therefore become even more important that the Health Care Financing
          Administration and the States closely monitor the quality of home health care. We also
          intend to continue our own studies of all aspects of the implementation of the prospective
          payment system, including quality of care.



Medicare HHA Survey and Certification Deficiencies   iii                                   OEI-02-99-00532
Comments

          The Health Care Financing Administration provided comments on this and two related
          draft reports. They concur with our conclusion that there appears to be no single cause
          for the increase in deficiencies. They also note that on October 1, 2000, the new
          prospective payment system for home health care will go into effect. They, like we, will
          monitor care under the new system. The Health Care Financing Administration’s
          comments are in Appendix B.




Medicare HHA Survey and Certification Deficiencies   iv                                 OEI-02-99-00532
                            TABLE OF CONTENTS



                                                                                                                            PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i



INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        1



FINDINGS

          Increase in deficiencies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


          Inconsistent processes among States . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


          Reasons for increase . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


          Most common deficiencies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11



CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14



APPENDIX

          A: List of recent OIG home health inspections . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


          B: Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16





Medicare HHA Survey and Certification Deficiencies                 v                                                 OEI-02-99-00532
                                      INTRODUCTION

PURPOSE

          To determine if the extent and nature of Medicare home health agency survey and
          certification deficiencies, particularly relating to adequacy of care, have changed since the
          implementation of the Interim Payment System in 1997.


BACKGROUND

          This inspection follows an Office of Inspector General (OIG) report issued in November

          1999 entitled “Medicare Beneficiary Access to Home Health Care” (OEI-02-99-00530). In

          that study, most hospital discharge planners report that they are generally able to place

          Medicare beneficiaries with home health agencies; however, some discharge planners

          volunteer their concern that not all Medicare patients may be getting adequate care. By

          adequate care, we mean the appropriate duration and intensity of services. This 

          inspection follows up on those concerns. It is part of a series of inspections that the OIG

          has conducted about home health care (see Appendix A).


Medicare home health care

          Home health care services consist of skilled nursing, therapy (physical, occupational, and
          speech) and certain related services, including aide services, all furnished in a patient’s
          home. Services are typically provided by registered nurses, therapists, social workers, or
          home health aides employed by or under contract with a home health agency (HHA).
          These agencies can be free-standing or provider based and classified as not-for-profit,
          proprietary, or governmental.

          Medicare will pay for home health care only if it is reasonable and necessary for the
          treatment of the patient’s illness or injury. In order for a beneficiary to qualify for
          Medicare coverage of home health services, he/she must be confined to home, require at
          least one skilled service, and be under the care of a physician who has established a plan
          of care. Skilled services are defined as intermittent skilled nursing services, physical
          therapy, speech therapy, and a continued need for occupational therapy.

          During much of the 1990's, Medicare spending for home health services increased
          substantially. From 1990 to 1997, Medicare expenditures rose from $3.7 billion to $17.8
          billion. This resulted from both an increase in the number of beneficiaries who received
          home health services and an increase in the number of visits they received. In 1999,
          however, Medicare spending for home health services decreased to a total of approximately
          $9.5 billion. Further, the average home health length of stay went from 98



Medicare HHA Survey and Certification Deficiencies   1                                     OEI-02-99-00532
          days in 1997 to 58 days in 1999. The number of beneficiaries served also decreased,
          from 462,000 in 1997 to 358,000 in 1999.

          Beginning in 1995, several initiatives were implemented to address concerns about fraud
          and abuse and to control the costs of Medicare home health. These included the creation
          of an anti-fraud campaign entitled Operation Restore Trust, changes to Medicare
          participation rules designed to screen out problem providers, and, most recently,
          payment limits created by the Balanced Budget Act of 1997 (BBA).

Survey and certification process

          All home health agencies participating in Medicare must be certified and approved by
          meeting certain Federal requirements and conditions of participation. The certification
          process includes routine on-site surveys that HCFA contracts with State agencies to
          perform. As mandated by statute, agencies can go without a standard survey no longer
          than 36 months after the previous survey. If they are found to have serious deficiencies
          during a standard survey, the State will conduct an extended survey. During a home health
          survey, State surveyors select two case-mix stratified samples of patients based on
          a pre-existing formula, one sample for a medical record review only and a second for a
          medical record review and home visit. During the record review, surveyors assess the
          services that the HHA is providing by reviewing the plan of care, medical record, and
          agency chart. They visit the beneficiary’s home to determine if the patient is in the
          condition that the HHA reports. Surveyors identify areas where the agency has failed to
          comply with Federal regulations. These deficiencies are cited and the agency is required to
          write a plan of correction.

          During the time frames we examined, deficiencies were cited under any of 153 specific
          deficiency tags, which included 12 condition level deficiencies and 141 standard level
          deficiencies. The condition level deficiencies, based on the conditions of participation,
          are broader and more severe in scope, and they encompass more specific standards within
          them. For example, the condition level tag G156 - acceptance of patients, plan of care, and
          medical supervision - includes 12 standard level deficiencies for various aspects of care that
          fall into this category. Generally, an HHA will be cited with a condition level deficiency if
          one or more of the standards within it are not met. In June 1999, three additional
          conditions related to the incorporation of the Outcome Assessment and Information Set
          were established.

          Several recent changes have occurred in the survey process. First, due to a moratorium
          on the formation of new Medicare home health agencies from September 1997 to January
          1998, no new initial surveys were conducted during these time periods. Second, beginning
          in October 1996, the mandated survey schedule changed from every 9 to 15 months to a
          variable 36 month schedule. The HCFA developed comprehensive criteria to determine
          HHA survey frequency. Thus, if an agency is not cited with major deficiencies or has no
          change in ownership, it will typically be surveyed every 3 years. New agencies




Medicare HHA Survey and Certification Deficiencies   2                                    OEI-02-99-00532
          must be surveyed annually for the first 3 years, and a new standard survey must also be

          conducted when a change of ownership occurs. 


          National data on home health agency survey and certification deficiencies is tracked by

          HCFA in the Online Survey Certification and Reporting System (OSCAR). The OSCAR

          tracks each agency’s deficiencies for the past three survey periods as well as the current

          survey period. 


          In lieu of obtaining Medicare certification from the State, agencies can be deemed by a

          HCFA approved accreditation organization. The HCFA currently authorizes two 

          deeming organizations: the Joint Commission for Accreditation of Healthcare

          Organizations (JCAHO) and the Community Health Accreditation Program (CHAP). 

          The home health agencies are surveyed by the accrediting agency and the survey results 

          are shared with HCFA. Approximately 200 home health agencies nationwide have deemed

          status. 


Home health plans of care

          Medicare regulations require that each patient have a plan of care. This plan should include

          specific information such as all pertinent diagnoses, types of services and equipment

          required, frequency of visits, prognosis, medications, and instructions for timely discharge

          or referral. The plan of care must also contain the physician’s orders for services and his or

          her signature. Currently, the physician is required to review the plan 

          of care with agency staff at least every 62 days. As of October 1, 2000, the time period 

          for review will be every 60 days.


          A plan of care is generally developed through a collaborative process involving the

          physician, the home health agency, and the patient or family. If the patient is in the hospital

          when the referral for home health care is made, the home health agency may have its own

          nurse assess the patient in the hospital, talk to the patient and/or family, and discuss his or

          her treatment needs with the physician. At this time the agency nurse may develop a

          preliminary plan of care which can be reviewed by the physician. After the patient is

          released from the hospital, an agency nurse or therapist will be assigned to the patient’s

          case and make a home visit. After assessing the home, talking to the patient and to the

          physician, the agency will modify the plan as needed. The physician may then sign the plan. 

          If the patient is not in the hospital at the time of the home health referral, the same process

          is generally followed but does not begin until the agency’s first visit to the home.


The Balanced Budget Act of 1997

          The Balanced Budget Act (BBA) of 1997 changed the way Medicare pays for home
          health care. The law requires a payment change from a cost-based method to a prospective
          payment system (PPS) of fixed, predetermined rates for home health services. The HCFA
          has proposed a national 60-day episode payment which will be case-mix




Medicare HHA Survey and Certification Deficiencies   3                                     OEI-02-99-00532
          adjusted based on the patient’s medical assessment and the projected number of therapy
          hours needed in the 60-day episode.

          Until this PPS is implemented, however, home health agencies are reimbursed under an
          interim payment system (IPS) which imposes payment limits on their services. The IPS
          was implemented on October 1, 1997 and will continue to be in place until the PPS
          begins on October 1, 2000. The IPS is intended to control the aggregate costs of services
          provided to beneficiaries. In addition to reducing the per-visit limit, it subjects Medicare
          HHAs to a new payment limit that is based on an aggregate per-beneficiary amount; this
          cap is applied to an agency’s total Medicare payments and does not limit payments for
          specific beneficiaries. The Omnibus Consolidated and Emergency Supplemental
          Appropriations Act of 1999 made several changes to the payment limits, including
          increasing the per-visit limits for all agencies and increasing the aggregate beneficiary limit
          for certain agencies. Agencies can use several methods to keep costs below their payment
          limits, including balancing their mix of low and high cost patients, reducing
          their costs overall, and increasing their proportion of low-cost patients.

          In the fall of 1999, Congress enacted the Medicare, Medicaid, and SCHIP Balanced
          Budget Act of 1999, which delayed a 15 percent payment reduction to be imposed with the
          implementation of PPS and increased payments under IPS to certain agencies.

OASIS

          Home health agencies use a data collection system called the Outcome and Assessment
          Information Set (OASIS) as part of their conditions of participation. All HHAs have
          been required to collect OASIS data on all patients receiving skilled care, regardless of
          payment source, since July 1999. The OASIS data elements focus primarily on the
          patient’s medical status and include socio-demographic, environmental, support systems,
          health status, and functional status information on each patient. Information on hospital re-
          admissions and emergency room visits is also captured. The OASIS can be used by home
          health agencies to determine patients treatment needs, develop plans of care, and monitor
          quality of care.

Related home health studies

          In addition to our recent inspection report, “Medicare Beneficiary Access to Home
          Health Agencies,” several other studies have been released recently that discuss access to
          and adequacy of home health care. A Medicare Payment Advisory Commission
          (MEDPAC) study on access to home health services found that some agencies are likely
          to discharge certain types of patients earlier because of the new payment system.
          Additionally, a George Washington University study reported that agencies are altering
          admissions standards and reducing clinical and administrative staff. It also found that
          chronically ill patients are experiencing greater fragmentation and disruption of care and
          that some patients were receiving insufficient intensity or duration of home health care
          services. Further, a study by the Institute for Health Care Research and Policy at


Medicare HHA Survey and Certification Deficiencies   4                                      OEI-02-99-00532
          Georgetown University found that similar patients with greater use of home care services
          are more likely to experience health improvements than those with low home care
          utilization.

          Finally, HCFA has completed two PPS demonstration projects. The latest, which looks
          at per-episode payments, found no evidence that quality of care, as measured by patient
          outcomes, had been adversely affected by the per-episode PPS demonstration. It also
          found that the per-episode payment substantially reduced the number of home visits
          without increasing the use of other Medicare services. Based on an analysis of claims data,
          HCFA found lower usage of emergency rooms by per-episode PPS patients and no
          significant differences in institutional admissions for home health diagnoses. The report
          therefore concluded that a per-episode based home health PPS could reduce Medicare
          costs without harming quality of care.



METHODOLOGY

          We combined four methods for this inspection: an analysis of OSCAR deficiency data;
          telephone or in-person interviews with State and HCFA survey and certification staff; a
          review of State survey deficiency reports; and a demographic data analysis.

Definition of “adequacy of care”

          For the purpose of this study, we are defining adequate care to mean appropriate intensity

          and frequency of services. In particular, we assume that the adequacy of care 

          beneficiaries receive is indicated, in part, by the extent to which their plan of care is

          appropriately developed and implemented. We therefore focused our analysis on deficiency

          data pertaining to the plan of care. We note that adequacy of care can also be defined to

          include other facets of care, such as coordination of services and communication between

          care providers. 


          In this study, we also differentiate between adequacy of care and quality of care. For the

          former, we mean intensity and duration of services. For the latter, we mean the quality of

          services provided. For example, the quality of care being provided by a skilled physical

          therapist may be very high, but the number of times such care is provided may not be

          sufficient to meet a patient’s needs and, therefore, not adequate.


Analysis of OSCAR deficiency data

          As already discussed, national data on home health agency survey and certification
          deficiencies is tracked by HCFA in the Online Survey Certification and Reporting
          System (OSCAR). During the time frames we examined, deficiencies were cited under any
          of 153 specific deficiency tags, which included 12 condition level deficiencies and 141
          standard level deficiencies. We analyzed OSCAR data for all home health agency surveys
          conducted in the first 6 months of 1997 and the first 6 months of 1999. This


Medicare HHA Survey and Certification Deficiencies   5                                  OEI-02-99-00532
          enabled us to compare an analogous time frame before and after IPS was implemented. 

          This time period is also the same one being used in the OIG study on hospital and

          emergency room re-admission rates.


          For both years, we examined the following three levels of OSCAR data:


          C         overall deficiencies;

          C         the 12 condition level deficiencies, which are more severe in scope; and 

          C         standard level deficiencies, particularly those relating to the plan of care. 


          From the first 6 months of 1997 to the first 6 months of 1999, we calculated the percentage

          change in the number of deficiencies and the percentage change in the deficiency rate (the

          number of deficiencies cited per survey). To determine the number of surveys conducted

          during each of our two time frames, we counted each unique provider number listed as one

          survey. 


State and HCFA survey and certification staff interviews and discussions

          We selected a purposive sample of 10 States to include States with both increases and
          decreases in deficiency rates and States with geographical differences. These 10 States
          are Arizona, California, Connecticut, Florida, Idaho, Illinois, Louisiana, New York, Ohio,
          and Texas.

          We conducted a total of 20 structured State interviews for this inspection. In each of the
          10 States, we spoke with the survey and certification director or other manager and a
          home health surveyor. In two of the States, New York and Connecticut, we conducted
          these interviews in-person. For the remaining eight States, we conducted our interviews by
          telephone. During these interviews, we asked respondents questions about their State
          survey process, recent changes to the process, and for their perspectives on home health
          care trends.

          We also had discussions with regional and headquarters HCFA staff. During these
          interviews, we asked respondents questions about HCFA policies on home health agency
          surveys, recent changes in survey policies and procedures, and for their perspectives on
          home health care trends.

Review of survey deficiency reports

          We asked each of our sample States to send us 10 survey deficiency reports (HCFA form
          2567) from surveys conducted in 1999, mostly during the first 6 months, for a total of 100
          reports. We asked for reports that specifically included any of 12 deficiency tags we
          identified as indicating adequacy of care. We then used structured review sheets to
          determine if the deficiencies cited related to documentation or adequacy of care issues. We
          also used this review to look for specific examples of inadequate care that illustrated typical
          problems found with deficient home health agencies.


Medicare HHA Survey and Certification Deficiencies      6                                      OEI-02-99-00532
Demographic data analysis

          Finally, we conducted a demographic analysis in order to determine if the Medicare home

          health population differed from the first 6 months of 1997 to the first 6 months of 1999. 

          First, using a one percent sample of the National Claims History (NCH) File, we 

          identified all beneficiaries who had a home health service from between January 1, 1997,

          and June 30, 1997, and between January 1, 1999, and June 30, 1999. We then merged 

          this data with data from a one percent sample of inpatient claims to determine which

          beneficiaries had a hospital discharge within 30 days prior to the start of their home 

          health services. This enabled us to determine the percentage of the home health population

          that had a prior hospitalization during both time periods. 


          We also merged our National Claims History File data with data from the Enrollment

          Database (EDB) to compare the variables of age, race, sex, and diagnosis for the home

          health population in our two time frames.


          This analysis indicated no changes in the age, sex, and race of home health beneficiaries. It

          did, however, show an increase from 48 percent to 55 percent in prior hospitalization rates.


Limitations

          There are several limitations to our methodology. First, this inspection is not intended to
          attribute any change in deficiencies to a particular factor, since many reasons may
          contribute to increases in deficiency rates. Further, we note that States have not been
          consistent in their reporting of OSCAR survey data. Lastly, the structure of the OSCAR
          file does not permit a trend analysis over time, since data is maintained based on each home
          health agency’s unique survey schedule.

          This inspection was conducted in accordance with the Quality Standards for
          Inspections issued by the President’s Council on Integrity and Efficiency.




Medicare HHA Survey and Certification Deficiencies   7                                    OEI-02-99-00532
                                               FINDINGS

Overall, home health agency deficiencies have increased,
but there is no single explanation for this growth

Deficiencies increased from 1997 to 1999

Both the overall rate and the total number of all deficiencies have increased

          Nationally, both the rate and total number of all home health agency deficiencies have
          grown between the first 6 months of 1997 and the first 6 months of 1999. The deficiency
          rate increased by 26 percent, from 3.1 in 1997 to 3.9 in 1999. At the same time, the total
          number of deficiencies grew by 53 percent, from 5,438 in the first 6 months of 1997 to
          8,297 in the first 6 months of 1999. The deficiency rate is defined as the number of
          deficiencies cited per survey. Since the total number of surveys conducted increased by 20
          percent between 1997 and 1999, from 1763 to 2112, in order to control for this change we
          will report only deficiency rates for the remainder of the report.

          During our study time frames, 12 so called “condition level” deficiencies with numerous
          standards within them could be cited if one or more of those standards were not met.
          Condition level deficiencies are therefore broader and more severe in scope. If a home
          health agency is found to have a condition level deficiency, it is considered to provide
          substandard care and must undergo an extended survey to determine if it meets the
          conditions of Medicare participation. The rate for total condition level deficiencies went
          from .14 in 1997 to .23 in 1999, which is an increase of more than half.


Inconsistent survey processes may result in different deficiency rates
among States

Some States increased while others decreased

          Not all States have had an increase in their deficiency rates between 1997 and 1999. About

          half have actually had a decrease. Survey and certification respondents from those sample

          States with a decrease in deficiency rates say that recent agency closures have

          resulted in fewer deficiencies being cited. In particular, they note that many of the agencies

          that closed did not provide good care. One survey director notes, “Many agencies with

          care problems went out of business.” 


          The numbers of surveys conducted between 1997 and 1999 also varies among States, 

          with a few States having significant increases. In the State with the largest increase,

          respondents attribute the increase to changes in agency ownership and facility mergers, 


Medicare HHA Survey and Certification Deficiencies   8                                    OEI-02-99-00532
          which require that a new standard survey be conducted. While about half of all States have
          had some increase between 1997 and 1999, one third have had decreases, and the
          remaining have had no change. Nearly all of the States that have had an increase in the
          number of surveys conducted also saw an increase in the number of deficiencies cited.
          Similarly, most of the States with fewer surveys have fewer deficiency citations.

Different survey protocols are noted among the 10 sample States

          Our interviews with survey and certification staff in the 10 sample States, as well as our

          review of survey reports, reveal inconsistencies among State survey procedures in 1999

          that may affect deficiency rates. First, not all States follow the same survey schedule; while

          most follow the HCFA variable 36 month schedule, within this schedule some States are

          surveying agencies more frequently than others. Further, States allocate their survey staff

          resources differently. In some, surveyors specialize in home health care 

          only, while in others, survey staff are responsible for other types of providers as well, 

          such as nursing homes and hospices. Additionally, some State respondents note that 

          there is high staff turnover among surveyors. 


          Surveyors also do not appear to consistently interpret and cite deficiencies on their 

          reports. In one State, survey respondents say that they had been citing few if any

          deficiencies at all in 1997. In reviewing different States’ survey deficiency reports, we

          noticed that similar problems are cited under different deficiency tags. For example, a

          registered nurse may fail to alert a patient’s physician of the need to alter his plan of care

          because it does not reflect his medical condition and needs; this deficiency can be cited

          under tag G164 (agency staff promptly alert the physician to any changes that suggest a

          need to alter the plan of care), tag G173 (duties of the registered nurse), or both. We also

          noticed that variation in surveyors’ professional judgement and discretion may affect

          whether or not a condition level deficiency is cited. State respondents say they look at 

          the scope and severity of the problem when determining whether to cite a deficiency.

          Typically, one report may cite a deficiency for a single occurrence, while another will cite

          the same deficiency for multiple occurrences. 



Several reasons may account for the increase in deficiencies

          The State survey and certification and HCFA staff we surveyed do not attribute the
          increase in deficiencies to any single factor. Instead, they point to several factors, including
          the following four.

Change in survey schedule

          Most of the States we surveyed, as well as HCFA respondents, cite changes to the home
          health survey schedule as having had an impact on deficiency rates. As noted in the
          background, beginning in 1996, HCFA changed the survey schedule to require that
          agencies be surveyed up to every 36 months after a previous standard survey, or more


Medicare HHA Survey and Certification Deficiencies   9                                      OEI-02-99-00532
          frequently if necessary. The schedule prior to this change was every 9 to 15 months.
          Both State and HCFA respondents believe that the decrease in survey frequency may be
          allowing home health agencies to develop and maintain patterns of poor care. One State
          respondent notes, “Agencies may become more lax if they know we’re not in there every
          year.” A HCFA respondent concurs, “Agencies that are on a 3 year cycle are getting into
          bad habits. Nobody is checking up on them.”

          A shift in survey and certification resources appears to have led to the change in the home
          health survey schedule. The HCFA respondents note that the majority of Federal oversight
          now goes towards nursing home providers. In half of the 10 sample States, respondents
          say that there were more home health surveyors in 1997 than there were in 1999. In one
          State, the director notes that funding for home health surveys has decreased due to funding
          increases for nursing home surveys.

Increased Federal initiatives and more stringent survey protocols

          Some State survey and certification respondents also cite increased Federal initiatives,
          including training they have received from HCFA and Operation Restore Trust (ORT)
          activities, as having strengthened their survey protocols to make them more stringent. In
          particular, they say that training provided to surveyors has increased their awareness of
          what to focus on during survey visits and how to appropriately interpret deficiency tags,
          thus resulting in more deficiencies being cited. In one State, HCFA re-trained the survey
          staff at the end of 1997 and beginning of 1998. Prior to this training, surveyors were only
          counting home health visits and looking at agency policies; they did not assess the care
          being provided or patient outcomes. A surveyor in another State notes, “Our training
          from HCFA has helped me to know what to look for. I am more likely to look a little
          deeper.”

          In addition to providing more training, ORT appears to have had other effects on the
          survey process. Beginning in October 1997, any agency that is part of a State, regional,
          or national fraud and abuse initiative must be surveyed at least every 12 months. In one
          State, the director says that both the volume and intensity of surveys increased as a result
          of ORT. The survey director in another State notes that since ORT, his staff has done a
          better job enforcing the homebound eligibility requirement.

Declining care

          A few State respondents directly attribute the increase in deficiencies to the declining care
          being provided by home health agencies. They say deficiencies have increased due to
          missed home health nursing, home health aide, and therapy visits as well as to poor
          documentation. One surveyor says that “corners are cut and mistakes are made.” These
          respondents also mention that staffing shortages in home health agencies may be
          adversely affecting the care being provided.




Medicare HHA Survey and Certification Deficiencies   10                                    OEI-02-99-00532
Interim Payment System

          Finally, while no State survey and certification respondents volunteer IPS as a direct
          cause for the increase in deficiencies, some note that this reimbursement system may be
          affecting the amount of care that agencies provide. Several State respondents say that
          agencies are reducing the frequency of home health aide visits. One mentions that the
          intensity of physical therapy services being provided is not sufficient. Furthermore, some
          State respondents note that IPS has caused agencies to close or to be more selective of
          their case mix, being less inclined to accept patients with more intense or chronic care
          needs.


Adequacy of care deficiencies are most common in both years

One fourth of all deficiencies fall within the “plan of care” condition

          The “plan of care” condition (G156) is defined as “acceptance of patients, plans of care,
          and medical supervision.” The majority of standards within this condition pertain to
          whether the plan of care is appropriately developed, followed, reviewed, and updated. This
          condition has the most deficiency citations in the first 6 months of both 1997 and 1999. In
          both years, one fourth of all deficiencies were cited under this condition.

Four of the top six standard deficiencies fall within the “plan of care” condition

          Nationally, in both 1997 and 1999, four of the six most commonly cited standard
          deficiencies fall within the “plan of care” condition. In both years, the top deficiency
          standard is G158, which is cited when care does not follow a written plan of care
          established and periodically reviewed by a physician. The remaining three tags are G159
          (the appropriate development of a plan of care), G165 (the appropriate administration of
          drugs and treatment as ordered by a physician), and G164 (the prompt notification of the
          physician when changes in a patient’s health status suggest the need to alter the plan of
          care).

Based on our review of survey reports, “plan of care” deficiencies fall into four
major categories

          Based on our review of 100 survey deficiency reports, it appears that agencies cited with
          plan of care deficiencies are not providing all ordered services. More specifically, we found
          four main areas of deficiencies: the agency is not providing as many nursing visits, home
          health aide visits, or therapy visits as were ordered by the physician in the plan of care; the
          agency is not providing all appropriate treatments during visits; agency staff are not alerting
          physicians when patients’ conditions worsen or treatment needs change; and the agency is
          not appropriately developing a comprehensive plan of care. While in some instances
          deficiencies are being cited only due to poor documentation, in most cases these



Medicare HHA Survey and Certification Deficiencies   11                                    OEI-02-99-00532
          deficiencies indicate that poor care is being provided. We provide the following
          examples of each of these types of deficiencies.

          Failure to provide all ordered visits:

          <	        One agency was cited for failing to provide home health aide services as
                    frequently as ordered. For one patient, aide services were ordered for three to five
                    times per week. The agency failed to provide any aide services at all during one
                    week and provided only two visits during another.

          <	        One agency was cited for failing to provide all ordered physical therapy and
                    occupational therapy visits. For one patient, two physical therapy visits and two
                    occupational therapy visits were ordered weekly, but the patient received only one
                    of each type of visit in the weeks reviewed. Another patient at the same agency
                    received no physical therapy services at all, despite physician orders for two such
                    visits a month.

          <	        Another agency was cited for failure to provide the intensity of skilled nursing visits
                    as ordered by the physician for 7 of 10 sampled patients. Of these 7 patients, the
                    skilled care provided was half of the ordered 16 hours per day throughout the 10 to
                    16 weeks when services were provided.

          Failure to provide all ordered treatments during visits:

          <	        In one agency, patient weights were not adequately monitored. In one case, a nurse
                    failed to take a weekly weight as ordered for a patient with congestive heart failure
                    during three of nine visits, despite documented symptoms of fluid retention, such as
                    shortness of breath.

          <	        Another agency was cited because the nurse failed to change the dressing of a
                    patient’s wound every three to four days, which was as often as called for in the
                    patient’s plan of care.

          <	        One agency failed to provide all ordered treatments in seven of eight records
                    reviewed. One patient with a head injury who was bed-bound and completely
                    dependent on skilled services was not periodically re-positioned and turned every 1
                    ½ hours as ordered and was left on a prone position for as long as 7 hours at a
                    time. This patient was also not provided with ordered tracheotomy and gastrotomy
                    tube care and foley catheter care.

          Failure to alert physicians when patients’ conditions worsen or treatment needs
          change:

          <	        One agency failed to notify the physician when a patient weighing only 120 pounds
                    lost 9 pounds in less than 1 month.


Medicare HHA Survey and Certification Deficiencies    12                                     OEI-02-99-00532
          <	        At another agency, the physician was not notified of two new open wounds on a
                    patient’s leg or of significant increase in edema of the leg. Consequently, the leg
                    increased in size from 36 cm to 43 cm in just 1 week.

          <	        In one extreme case, there was no communication by the skilled nurse to the
                    physician or to the director of patient services and nurse supervisor about a
                    patient’s elevated temperature. According to the surveyor, a missed visit during
                    this 3 day episode of elevated temperature compounded the problem. On the day
                    following the missed visit, the patient was admitted to the hospital and died the
                    evening of the next day.

          Failure to appropriately develop a comprehensive plan of care:

          <	        One agency failed to include all required information in the plans of care for 13 of
                    15 patient records reviewed by surveyors. These plans of care typically lacked
                    instructions for the delivery of services, such as the frequency of visits. Other
                    missing information pertained to the patients’ prognoses and discharge plans.

          <	        In another agency, a patient with multiple diagnoses had a plan of care that “lacked
                    specific interventions and directives” related to blood glucose and nutritional
                    monitoring, assessment and status of skin integrity, and psycho social issues.
                    Despite clinical documentation of a worsening condition in all of these categories,
                    including the development of stage II pressure sores, no further interventions or
                    communications with the physician were made.

          In most of the examples cited the agency did submit a plan of correction that addressed the
          problems found. These plans of corrections were subsequently approved by the State.

Less commonly, plan of care deficiencies also indicate that more care was
provided than ordered

          Our review also revealed cases where agencies provided more care than ordered by
          physicians in the plan of care. More specifically, they provided more visits or performed
          additional or different treatments than were ordered. Examples of this include:

          <	        One agency provided an occupational therapy evaluation as well as six occupational
                    therapy visits without the physician having ordered them.

          <	        Another agency provided skilled nursing visits three times per week even though
                    the physician ordered only one visit per week. The agency explained that after the
                    registered nurse completed an initial assessment of the patient, she felt the patient
                    needed more skilled nursing care than ordered. However, there was no
                    documentation that the agency consulted the physician about this change.




Medicare HHA Survey and Certification Deficiencies    13                                     OEI-02-99-00532
                                         CONCLUSION

          Just as there is no single cause for the increase in home health agency deficiencies, there is
          no single course of action to be taken. Instead, a combination of approaches may be
          appropriate, including strengthened State survey protocols and continued close scrutiny of
          the care being provided to home health beneficiaries.

          The nature of deficiencies being cited indicate that some beneficiaries may not be receiving
          all the care they need. The introduction of the Prospective Payment System should in part
          address this concern, since it allocates more money for the most severe patients and
          establishes new payments every 60 days for long term patients. At the same time, this new
          system could create or increase the incentive on the part of some home health agencies to
          shortchange Medicare home health beneficiaries in the amount and intensity of care
          provided. It will therefore become even more important that HCFA and the States closely
          monitor the quality of home health care. We also intend to continue our own studies of all
          aspects of the implementation of the prospective payment system, including quality of care.

Comments

          The Health Care Financing Administration provided comments on this and two related
          draft reports. They concur with our conclusion that there appears to be no single cause for
          the increase in deficiencies. They also note that on October 1, 2000, the new prospective
          payment system for home health care will go into effect. They, like we, will monitor care
          under the new system. The Health Care Financing Administration’s comments are in
          Appendix B.




Medicare HHA Survey and Certification Deficiencies   14                                    OEI-02-99-00532
                                                                          APPENDIX A

     Selected List of Other Recent Office of Inspector General

                      Home Health Inspections


Office of Inspector General, US Department of Health and Human Services, “Medicare
Beneficiary Access to Home Health Agencies,” OEI-02-99-00530, October 1999.

Office of Inspector General, US Department of Health and Human Services, “Medicare
Beneficiary Access to Home Health Care: 2000,” OEI-02-00-00320, September 2000.

Office of Inspector General, US Department of Health and Human Services, “Adequacy of Home
Health Services: Hospital Re-Admissions and Emergency Room Visits,” OEI-02-99-00531,
September 2000.




Medicare HHA Survey and Certification Deficiencies   15                         OEI-02-99-00532
                                                                           APPENDIX B


                                             Agency Comments


In this appendix, we present comments from the Health Care Financing Administration.




Medicare HHA Survey and Certification Deficiencies   16                           OEI-02-99-00532
Medicare HHA Survey and Certification Deficiencies   17   OEI-02-99-00532
Medicare HHA Survey and Certification Deficiencies   18   OEI-02-99-00532
Medicare HHA Survey and Certification Deficiencies   19   OEI-02-99-00532
